          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




 Audit Report


Management Controls over Monitoring
and Closeout of Small Business
Innovation Research Phase II Grants




OAS-M-08-09                        July 2008
REPORT ON MANAGEMENT CONTROLS OVER MONITORING AND
CLOSEOUT OF SMALL BUSINESS INNOVATION RESEARCH PHASE II
GRANTS


TABLE OF
CONTENTS


  SBIR Phase II Grants

  Details of Finding                                  1

  Recommendations and Comments                        3


  Appendices

   1. Objective, Scope, and Methodology               5

   2. Related Audit Report                            7

   3. Management Comments                             8
SBIR PHASE II GRANTS

Grant Administration   The Office of Science's Chicago Office (Chicago) had not corrected
                       all weaknesses in the Small Business Innovation Research Phase II
                       (SBIR II) grants program. Specifically, management had not
                       completed resolution of questioned costs from our previous audit of
                       SBIR II grants. Additionally, testing revealed a number of problems
                       with the timely close out of completed grants.

                                             Previous Audit Findings

                       Management had not yet resolved a portion of the questioned costs
                       we identified in our previous audit of SBIR II grants. Specifically,
                       of the $2.4 million in questioned costs, management had not
                       resolved costs of $1,225,234. In addition, Chicago closed one of the
                       four grants we reported in 2001 even though the issue identified in
                       our previous audit was not addressed. Chicago officials indicated
                       they were in the process of resolving these issues.

                                                 Grant Close Out

                       Chicago is also not closing out SBIR II grants in a timely manner.
                       The Code of Federal Regulations (CFR) requires grantees to submit
                       a final expenditure report within 90 days of the completion of the
                       grant term. After the final expenditure report is filed with the
                       Department, the grantee must retain grant documentation for three
                       years. Thus, the Department of Energy (Department) has a
                       three-year window of opportunity to review and close out SBIR II
                       grants should it need to request supporting cost information from the
                       grantee. Our testing, however, revealed that the Department is
                       foregoing this window of opportunity and is taking longer than three
                       years to close out its SBIR II grants. As of September 30, 2007,
                       nearly 270 SBIR II grants were considered complete by Chicago but
                       had not yet been closed out. We selected for review all 84 grants
                       with completion dates exceeding three years as these grants had the
                       greatest potential to have funds at risk. As shown in the table below,
                       Chicago had not completed action on or was unable to provide us
                       with the file for 73 of the 84 SBIR II grants that had been completed
                       for more than three years.

                                   SBIR II Grants Not Acted Upon as Prescribed

                        Final Expenditure Reports:               Number         Percentage

                        Not Received as of February 2008             35             42%
                        Received more than three years prior
                        to February 2008                             34             40%
                        Grant file could not be located               4              5%

                           Total out of 84 SBIR Grants               73            87%

Page 1                                                                 Details of Finding
               We identified 35 instances in which an expenditure report had not
               been received even though the grant had been completed for more
               than three years. The Department still has the right to request
               information because the grantee's three-year record retention
               period does not begin until the final expenditure report is
               submitted. However, in seven of the eight grants reviewed, the
               grantee had not been contacted for more than three years. In four
               of these seven instances, the grantee had never been contacted and
               urged to send the documents necessary to close out the grant.
               Long delays in closing out completed awards increases the risk that
               grantees will not remain going concerns and be capable of
               supplying needed records.

               In the 34 instances where the final expenditure report was received
               more than three years prior to our review, Chicago told us that an
               audit or desk review may still be needed for 10 of the grants.
               However, the window of opportunity for the Government to
               request that grantees supply records for these 10 grants has lapsed.
               Therefore, these grantees may have destroyed their records
               because they are not obligated to retain grant documents after the
               three-year period unless Chicago directed them to do so before the
               period lapsed. In reviewing the seven files that were available for
               our review, we could not find evidence that Chicago had directed
               the grantees to retain grant documents beyond the three-year
               period.

Post-Award     Chicago did not give sufficient attention to verifying
Cost Reviews   that costs incurred by SBIR II grantees were allowable. Chicago
               officials told us that problems with insufficient staff and resources
               required them to focus their attention on active awards rather than
               grant close out. Chicago also indicated that it used a risk-based
               process to determine whether to conduct desk reviews or audits
               before closing out grants. The current process uses a judgmental
               approach to select grants for desk reviews or audits based on a
               number of risk factors tied to financial measures and past
               experiences. However, SBIR II grants are infrequently subjected
               to desk reviews or audits because Chicago's process permits grants
               under $1 million without any known concerns to be closed by the
               contracting officer without such reviews. SBIR II grants have
               typically fallen below this threshold and subsequently have not
               been subjected to audits or desk reviews. Of the 12 grants we
               selected for review, none had been selected for a post-award cost
               review.




Page 2                                                         Details of Finding
Potential for       Without improvement in the timeliness of the grant closeout and
Unnecessary and     review process, the Department may pay for unnecessary and
Unallowable Costs   unallowable costs. For example, we requested support from 12
                    grantees for review and identified $27,610 in questioned costs. We
                    also questioned $749,749 as unsupported due to the failure of one
                    of the grantees to provide requested records. Further, the
                    recoverability of $1,225,234 in costs identified in our previous
                    SBIR II audit is uncertain, considering three of the four grants with
                    questioned costs provided their final expenditure report more than
                    three years ago. Therefore, the supporting cost data may not be
                    available for the Department's review. In fact, over $7.4 million in
                    SBIR II funding is tied to grants where the need for an audit or desk
                    review is expected or unknown and the required retention period
                    has expired. Grantees may have legitimately destroyed their
                    records – actions that could jeopardize the performance of these
                    assessments.

                    To its credit, Chicago resolved approximately 75% of the total
                    questioned and unsupported costs from our previous report.
                    Chicago officials also said they have attempted to improve the close
                    out process. For example, officials said they offered incentives to
                    employees to expedite grant close outs.

RECOMMENDATIONS     To help resolve the issues discussed in this report and improve
                    administration of SBIR II grants, we recommend that the Manager,
                    Chicago Office, direct acquisition officials to:

                        1. Make a determination regarding the allowability of costs
                           questioned in this report;

                        2. Initiate steps to ensure grantees submit their final
                           expenditure report within the required timeframe and that
                           grant files are closed in the required amount of time after
                           receipt of the final expenditure report; and,

                        3. Enhance the existing closeout process used to select
                           SBIR II grants for audit by also including randomly
                           selected grants that are not otherwise selected based on
                           risk.

MANAGEMENT AND      Chicago concurred with the recommendations and
AUDITOR COMMENTS    identified corrective actions they plan to complete by December 31,
                    2008. These actions include a determination of the allowability of
                    questioned costs; actions to decrease the time required to close out
                    grants; and revisions to the closeout policy and procedures to allow
                    for random audit sampling of SBIR II grants being closed out.



Page 3                                           Recommendations and Comments
         We consider management's comments and planned actions to be
         responsive to our recommendations.




Page 4                                                     Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether previously
              observed weaknesses with the administration of the Small Business
              Innovation Research Phase II (SBIR II) grant program had been
              corrected.

SCOPE         The audit was performed from October 2007 to July 2008 at the
              Office of Science's Chicago Office (Chicago) in Argonne, Illinois.
              The scope of the audit considered the 83 SBIR II grants that were
              closed out in Fiscal Years 2006 and 2007 and the 267 grants
              classified as inactive but not yet closed out as of September 30, 2007,
              with a completion date December 31, 2004, or earlier.

METHODOLOGY   To accomplish the audit objective, we:

                   • Reviewed applicable laws and regulations, as well as
                     internal Chicago policies for administering SBIR II grants;

                   • Performed follow-up on the status of recommendations from
                     the previous Office of Inspector General Audit of SBIR II
                     grants;

                   • Contacted the Defense Contract Audit Agency to determine
                     if audit reports were issued for grantees in our sample, and
                     reviewed those available;

                   • Reviewed the files of selected grantees to determine grant
                     terms and the extent of review activity by Chicago personnel
                     for the administration of the awards;

                   • Reviewed supporting documentation from selected grantees
                     to determine the allowability of costs claimed;

                   • Reviewed grantee final expenditure reports to determine
                     when they were received; and,

                   • Held discussions with personnel from Chicago.

              This performance audit was conducted in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. The audit included tests of




Page 5                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    controls and compliance with laws and regulations necessary to
                    satisfy audit objectives. Because our review was limited, it would
                    not necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. Also, we considered the
                    establishment of performance measures in accordance with the
                    Government Performance and Results Act of 1993 as they related to
                    the audit objective; however we did not identify any measures
                    related to SBIR II grants. We relied on computer-processed data to
                    identify the population of SBIR II grants in order to accomplish our
                    audit objective. Based on our comparisons of computer-processed
                    data to supporting documentation, we determined that the data used
                    to satisfy our audit objective were reliable.

                    Management waived an exit conference.




Page 6                                          Objective, Scope, and Methodology
Appendix 2

                                 RELATED AUDIT REPORT


•   Administration of Small Business Innovation Research Phase II Grants (DOE/IG-0521,
    August 2001). The audit found that the Department of Energy (Department) had not
    appropriately verified that all costs claimed by Small Business Innovation Research Phase II
    (SBIR II) grantees were, in fact, allowable and used for developing the specific innovations
    described in the relevant grant documents. The Department generally limited its cost reviews
    to pre-award evaluations of the costs proposed in the applications submitted by grantees; it
    did not place sufficient emphasis on post-award reviews of actual costs. As a result, the audit
    found that the Department reimbursed grantees for questionable costs. For example, three
    grantees did not provide any support for about $2.4 million in claimed costs. Further, the
    Department did not verify that grantees fully contributed their portion of cost sharing, which
    was a requirement of the grants. It was noted that ten SBIR II grantees reported providing
    $2.4 million less in cost sharing than required by the terms of the relevant grant agreements.
    The audit also reported that grantees were not submitting final cost data within required
    timeframes and grants were not being closed out in a timely manner.




Page 7                                                                    Related Audit Report
Appendix 3




Page 8       Management Comments
Appendix 3 (Continued)




Page 9                   Management Comments
                                                                    IG Report No. OAS-M-08-09

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
